                   Peace Corps
                   Office of Inspector General




Peace Corps/Ukraine office in Kiev    Statue of Kiev Founders in Independence Square




                                                          Source: CIA World Factbook




                              Final Audit Report:
                              Peace Corps/Ukraine
                                     IG-11-06-A
                                                                                   March 2011
                                    EXECUTIVE SUMMARY
Peace Corps/Ukraine (PC/Ukraine) is the largest Peace Corps post in the world with
approximately 60 full-time employees and contractors supporting approximately 466 Volunteers.
The post’s size enabled it to create economies of scale and specialized support for several
financial and administrative programs, such as vehicle management, contracting, grant programs,
and the President’s Emergency Plan for AIDS Relief (PEPFAR).

In general, the post’s financial and administrative operations were functioning satisfactorily and
complied with agency policies and federal regulations. However, we identified several financial
and administrative operations not in compliance with agency policy and guidance. Some of the
more important findings are summarized below.

The post had not properly separated duties between preparing the bill for collection (BOC) and
collecting and recording the cash proceeds for the value added tax (VAT) refund. Further, the
billing officer prepared BOCs after the funds were collected by the cashier. In addition, the post
did not document the billing procedure, or provided adequate training to the back-up billing
officer to issue BOC in absence of the billing officer.

The post’s medical supply inventory control (MSIC) clerk, who is not part of the medical office
but is assigned to track medical supplies, did not independently track medical supplies and
instead relied on the medical assistant’s tracking mechanism. Further, the medical inventory
form provided in the Peace Corps Manual for the MSIC clerk did not facilitate the tracking of
medical supplies.

The post had not developed a formal process for distributing medical supplies to Volunteers and
could not ensure proper internal control for potentially sensitive medication. The Office of
Medical Services (OMS) did not issue guidance on this matter and as a result, posts have been
developing their own processes, which may not be secure or may increase the risk of theft or
abuse of medical supplies.

The general services officer (GSO) did not retain the records supporting annual property
inventory verification and did not identify and provide explanations of overages/shortages
resulting from the annual property inventory verification.

In addition, the post has struggled to find suitable office space with approval from the host
country to accommodate increased numbers of staff and Volunteers as a result of the President’s
Peace Corps growth initiative. Additional space could provide increased security measures over
the information technology (IT) and medical supplies.




Final Audit Report: Peace Corps/Ukraine                                                              i
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          BILLS OF COLLECTION ...................................................................................................................................... 1

          MEDICAL SUPPLIES ........................................................................................................................................... 4

          SAFEGUARDING PERSONALLY IDENTIFIABLE INFORMATION ................................................................................ 6

          PROPERTY MANAGEMENT .................................................................................................................................. 7

          IMPREST FUND MANAGEMENT ........................................................................................................................... 8

          INFORMATION TECHNOLOGY ........................................................................................................................... 10

          VOLUNTEER WEBSITE ...................................................................................................................................... 10

          GRANT MANAGEMENT ..................................................................................................................................... 11

          VOLUNTEER/TRAINEE ALLOWANCES................................................................................................................. 13


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .....................................................15

LIST OF RECOMMENDATIONS .......................................................................................................16

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................19

APPENDIX B: LIST OF ACRONYMS ................................................................................................20

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................21

APPENDIX D: OIG COMMENTS.....................................................................................................33

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................34
                                           BACKGROUND
The Office of Inspector General conducted an audit of PC/Ukraine (hereafter referred to as “the
post”) October 19 - November 3, 2010. The post was last audited in 2005.

The program was established in May 1992 when former Ukrainian President Leonid Kravchuk
and former U.S. President George H.W. Bush signed a formal country agreement. Ukraine was
the first successor nation of the former Soviet Union to invite the Peace Corps to establish a
program. Volunteers in Ukraine work in the areas of community economic development,
English language education, and youth development.

Our overall objective in auditing the post was to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                          AUDIT RESULTS
BILLS OF COLLECTION

Segregation of Duties

The post had not adequately separated responsibilities for preparing the BOC and collecting and
recording the cash proceeds. For the VAT refunds, the cashier prepared the supporting
documentation, filed the application with tax authorities, and processed the refund. Only after
the payment was received did the cashier forward the information to the billing officer to prepare
the BOC.

The Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1) states:

        Key duties and responsibilities need to be divided or segregated among different people to reduce the risk
        of error or fraud. This should include separating the responsibilities for authorizing transactions,
        processing and recording them, reviewing the transactions, and handling any related assets. No individual
        should control all key aspects of a transaction or event.

Inadequate segregation of duties between preparing the BOC and processing the refund increases
the risk of fraud and abuse of government funds.

    We Recommend:

    1. That the administrative officer and country director assign a staff member, other than the
       cashier, to calculate the Value added tax refund amount, file application for refund, and
       provide the information first to the billing officer to prepare the bill for collection.


Final Audit Report: Peace Corps/Ukraine                                                                              1
Process for Preparing BOC

For certain transactions, the billing officer prepared BOCs after the cashier already collected the
funds. For example, during the 2008 and 2010 auctions of excess property the GSO did not
provide details relating to specific sales amounts to the billing officer for preparation of
individual BOCs. Instead, he provided the information to the cashier. After collecting the total
proceeds, the cashier informed the billing officer, who prepared two BOCs. One BOC was for IT
sales and the other for general property sales, instead of BOCs for each payee.

Similarly, the billing officer prepared BOCs for the VAT refund after the cashier collected funds.
Without adequate information, the billing office cannot accurately track BOCs to ensure timely
collection and may neglect to issue a BOC, resulting in loss of funds for Peace Corps.

Peace Corps Manual section (MS) 777.11.0, “Billing and Collection Procedures, Debts and
Claims,” states:

        When a non-billing office determines that an amount is due Peace Corps, it will notify the appropriate
        billing office.” Further, The Standards for Internal Control in the Federal Government requires accurate and
        timely recording of transactions and events. It states, “Transactions should be promptly recorded to
        maintain their relevance and value to management in controlling operations and making decisions.

Without issuing the BOC in a timely manner, management will not be aware of amounts due to
Peace Corps from third parties and the collection officer will not initiate the collection process.

    We Recommend:

    2. That the administrative officer and country director enhance the billing process by
       ensuring that information about all claims is provided to the billing officer so the bill for
       collection can be issued in a timely manner.


Authorization for Cashier Voids

The billing officer did not maintain all of the support for the voided BOCs in the BOC file.
Back-up documentation is required to validate reason for voided transactions. According to The
Standards for Internal Control in the Federal Government, “Internal control and all transactions
and other significant events need to be clearly documented, and the documentation should be
readily available for examination. All documentation and records should be properly managed
and maintained.”

    We Recommend:

    3. That the administrative officer approve the voided transaction only if the cashier has
       attached adequate support.

    4. That the billing officer collect and retain adequate support for all voided transactions in
       the bills for collection file.

Final Audit Report: Peace Corps/Ukraine                                                                            2
Written Procedures and Training for Back-up Billing Officer

We could not fully evaluate the billing process because the post did not document the billing
procedure and the financial assistant filling in as the back-up billing officer could not adequately
explain the billing process. Lack of written procedures and adequate training of the back-up
billing officer could result in delays or omissions in preparing BOCs for the amount due to Peace
Corps.

    We Recommend:

    5. That the administrative officer document the billing procedure and provide adequate
       training to the back-up for the billing officer to ensure continuity of operations.


VAT Refund Claim

The post did not use the proper budgetary code for VAT refunds to track taxes paid during
purchasing. VAT is a tax paid and reimbursed overseas for the purchase of certain goods. The
Office of the Chief Financial Officer established a separate budgetary classification, object class
code 41013, to track VAT payments. However, because the post was not using this object class
code, the cashier had to manually calculate the VAT refund by gathering information from all
paid invoices during the quarter and totaling the VAT amounts. This manual process was
inefficient and prone to errors. In addition, there was no process to verify the accuracy and
completeness of the refund amount.

Based on additional review and discussions with the Office of the Chief Financial Officer, we
noted that Peace Corps management had not developed an effective standard procedure for
tracking, recording, and maintaining controls over VAT payments and refunds. Instead, the posts
followed non-integrated procedures for recording and managing VAT payments and refunds.
While some posts utilized the designated budgetary code to record VAT payments and refunds,
other posts were unable to use the same process because of complexity involved in recording
transactions when expenditure and collections are incurred and collected in different currencies.
This also resulted in inconsistencies in recording of accounts receivable for the outstanding VAT
refunds.

Based on analysis of BOCs processed in FORPost for fiscal year 2010, we noted that 19 posts
recorded refunds for VAT of approximately $467,000. However, because of the manual process
used by PC/Ukraine and other posts, additional VAT refund amounts may be unaccounted for
and may not be identified for collection. During the audit the Office of the Chief Financial
Officer discussed alternative methods to tracking and recording VAT amounts. Although
processes may differ between posts based on the local country’s tax process and currency, the
Peace Corps needs to define the standard procedures and provide guidance with posts that
require alternative methods to ensure consistency and internal control over VAT refunds.




Final Audit Report: Peace Corps/Ukraine                                                               3
    We Recommend:

    6. That the administrative officer, in coordination with the Office of the Chief Financial
       Officer, implement a process to charge the value added tax paid and refunded to a
       separate budgetary object class code and retain supporting documentation separately for
       processing.

    7. That the administrative officer implement a process to reconcile the balance in the value
       added tax object class code account with the supporting documentation and refund
       application.

    8. That the Office of the Chief Financial Officer develop and implement procedures for
       tracking, recording, and maintaining controls over value added tax payments and refunds
       to ensure that all refund claims are filed in a timely manner and refund is received for all
       value added taxes paid by Peace Corps.

    9. That the Office of the Chief Financial Officer assess the process for recording the account
       receivable for value added tax refunds based on the procedure for tracking and recording
       value added tax amounts.


MEDICAL SUPPLIES

Controls over Dispensing Medical Supplies to Volunteers

The post had an appointed MSIC clerk and used the proper medical supply forms. However, the
Peace Corps standard forms were not completely effective at controlling medical supplies. The
forms were not completely effective at controlling medical supplies because of the following
control weaknesses:

        The MSIC clerk cannot properly track medical supply inventories because the medical
        inventory form issued by headquarters did not provide a column for the beginning
        balance.

        The medical control forms used to record dispensing controlled and specially designated
        medical supplies were not sequentially pre-numbered.

MS 734 3.5 states:

        The MSIC Clerk must maintain a Medical Inventory Control Log to record the inventory status of all
        medical supplies that are specially designated or controlled substances purchased, received, and stocked at
        post see Attachment C-PC-734C Medical Inventory Control Log.

        Each Medical Unit must maintain, on a current basis, a complete and accurate record of each controlled
        substance dispensed or disposed of.




Final Audit Report: Peace Corps/Ukraine                                                                               4
Adequate tracking of medical supplies, specifically the listed items is required to ensure critical
medicine is available to Volunteers when needed. Monitoring of dispensing history is vital to
reduce theft abuse of specially designated and controlled substances.

During the audit, OMS revised the medical supply inventory tracking and physical count
worksheets to enhance medical inventory tracking. OMS was also considering sequentially pre-
numbering the dispensing forms to ensure all forms are entered in tracking worksheets.

    We Recommend:

    10. That the Office of Medical Services issue guidance to all Peace Corps medical officers to
        utilize pre-numbered medical control forms for dispensing medical supplies to enhance
        accuracy and completeness of medical supplies record.


Medical Inventory Control Log

We determined that the MSIC clerk did not record all the transactions in the Medical Inventory
Control Log in accordance with MS 734. Specifically, the MSIC clerk:

        Was not receiving all receiving reports;

        Did not record all disbursement of prescription drugs and controlled substances; and

        Did not sign inventory count sheets regularly.

MS 734.3.5.1 states:

        The MSIC Clerk must maintain a Medical Inventory Control Log to record the inventory status of all
        medical supplies that are specially designated or controlled substances purchased, received, and stocked at
        post. The CD, at least quarterly, must review the Medical Inventory Control Log maintained by the MSIC
        Clerk to ensure that the Log is accurate and complete.

The MSIC clerk incorrectly relied on the inventory maintained by the medical administrative
assistant to verify accuracy of inventory during the monthly physical counts.




Final Audit Report: Peace Corps/Ukraine                                                                               5
    We Recommend:

    11. That the Medical Supply Inventory Control clerk maintain the Medical Inventory Control
        Log in compliance with the Peace Corps Manual.

    12. That the country director review the Medical Inventory Control Log as required by the
        Peace Corps Manual.


Distribution of Medical Supplies to Volunteers

The post had not developed a formal process for distributing medical supplies and could not
ensure proper internal control to track potentially sensitive medication. When the post decided
not to use the mail system to deliver medical supplies, it needed to create an alternative process
for medical supply distribution. For example, for Volunteers who could not come to the Peace
Corps office, the post developed a process to place medication in paper bags and deliver them to
the training office or with staff traveling near Volunteer sites.

Peace Corps policies discuss medical supply controls and technical guidelines include medical
officer responsibilities. However, these guidelines did not define standard operating procedures
and best practices for distributing medical supplies to Volunteers when Volunteers are not able to
pick-up the medicine in person. Without a specific headquarters policy, posts develop their own
processes which may lack accountability. These processes may not consider risks associated
with distribution of prescription medicine and controlled substances such as pilferage or other
losses and may expose Peace Corps to risks if they do not comply with the prevailing privacy
laws.

Based on our findings, OMS has agreed to evaluate various options available for distributing the
medical supplies and issue a policy to minimize risk and complies with the privacy laws.

    We Recommend:

    13. That the Office of Medical Services issue guidance and best practices discussing
        acceptable methods of distributing medicine to Volunteers and how to ensure proper
        accountability of medication that cannot be hand delivered to the Volunteer by the
        medical staff.


SAFEGUARDING PERSONALLY IDENTIFIABLE INFORMATION

During our audit we observed a stack of old documents on top of the cabinet in the medical
office hallway marked “To be Destroyed” that included personally identifiable information
including names and Social Security numbers. The Peace Corps medical officer immediately
asked staff to review the documents and take appropriate action.




Final Audit Report: Peace Corps/Ukraine                                                              6
The Privacy Act of 1974 requires agencies to only obtain information on individuals necessary to
accomplish the mission and to establish necessary safeguards of records with personal
information. In implementing the Privacy Act regarding medical records, MS 267. 2.1.2 states:

        These records are medically confidential and are to be stored in a file secured with a manipulation-proof
        combination lock set by the PCMO [Peace Corps medical officer]. Access to the records and knowledge of
        the combination should be limited to the PCMO and authorized medical assistants.

The Inspector General’s Statement on the Peace Corps’ Management and Performance
Challenges, reported in the agency’s 2010 Performance and Accountability Report1 (PAR), cites
safeguarding personally identifiable information as a management challenge. Because of the
sensitivity, the post should take all necessary precautions to minimize the potential for loss, theft,
or abuse of personally identifiable information.

    We Recommend:

    14. That the country director conduct a review of the medical office to ensure personally
        identifiable information is properly safeguarded and disposed and that the medical unit
        procedures provide for proper handling, and protecting of personally identifiable
        information.


PROPERTY MANAGEMENT

The GSO did not maintain accurate and complete property records. During our review of
property records we noted that:
        The GSO did not retain the records supporting annual inventory verification.

        The GSO did not identify and provide explanations for differences noted after recording
        results of the annual inventory verification in the Personal Property Inventory Report
        (PPIR).

        PPIR contained seven property records without a category identifying the property as
        capitalized, nonexpendable, or expendable. The general services assistant provided us
        with an updated PPIR identifying categories for all properties.

MS 511 states:

        The property officer prepares final inventories, making necessary changes in the property management
        database and including explanations of overages/shortages. After completing the reconciliation, the
        property account holder is responsible for updating his/her records.

Without the GSO preparing a report identifying the differences noted and providing adequate
explanation, there is no audit trail to verify changes made to the PPIR resulting from the physical

1
 Peace Corps’ Management and Performance Challenges are reported in the annual Peace Corps Performance and
Accountability Report.

Final Audit Report: Peace Corps/Ukraine                                                                         7
count and we could not determine if the balances in the PPIR were accurate and complete. The
Inspector General’s Statement on the Peace Corps’ Management and Performance Challenges
continues to cite Property management as a management challenge and states, “Ineffective
property management unnecessarily exposes the agency to risks associated with fraud, waste,
and abuse and drives operating costs up.”

    We Recommend:

    15. That the general services officer retain the records supporting annual inventory
        verification, including identification and explanation of any changes after recording the
        results of inventory verification.


IMPREST FUND MANAGEMENT

Miscoding Object Class Codes

PC/Ukraine did not ensure costs were properly allocated to the correct budgetary object class
code used to track expenditures. For example, the post had allocated numerous charges to object
class codes for “other services” or “supplies,” including fuel expenses for Peace Corps vehicles,
printing charges coded to supplies, and parking coded to other services.

The Peace Corps 2011 Fiscal Coding Handbook states:

        The Object Class Code (OC) is used to classify expenditures according to types of goods and services, such
        as personnel, travel, rent, and supplies.

        In Odyssey, Peace Corps has established its object class codes to comply with the Office of Management
        and Budget (OMB) reporting requirements.

Accurate coding is required for management analysis, budget tracking, and ensuring that the
expenses are classified to comply with the Peace Corps and the Office of Management and
Budget reporting requirements.

    We Recommend:

    16. That the administrative officer provide adequate training to the financial assistants for
        assigning proper object class codes per the Fiscal Coding Handbook.

    17. That the administrative officer review the accuracy of object class codes while
        authorizing transactions.

Processing Payments in FORPost

The financial assistant did not accurately record the name of the vendor in the FORPost payee
field to ensure that the payee’s records for payments were unique. Several payees were listed
multiple times, often with slight variations due to typographical errors.

Final Audit Report: Peace Corps/Ukraine                                                                          8
The Overseas Financial Management Handbook (OFMH) chapter 64 states:

        Vendor IDs are required to establish obligations and process payments in Odyssey and to allow the agency
        to comply with federal reporting requirements. Each vendor receiving payments from Peace Corps must
        have a vendor identification number and that the name provided for the vendor ID be the same name on the
        bank account to assure that the bank will be able to credit the funds.

For electronic payments the post must submit vendor information to headquarters for entering
into Odyssey. However, imprest fund payments did not have a similar process because the
banking information is not necessary and some payments are small dollar and to one-time
payees.

Without accurate and complete information in the system, it is difficult to analyze amounts paid
to vendors, identify potential duplicates, and conduct trend analysis.

    We Recommend:

    18. That the administrative officer review the payment report from FORPost every week to
        ensure payee names are inputted correctly while processing payments.

    19. That the Office of the Chief Financial Officer develop a vendor table within FORPost to
        maintain payee information for imprest fund payments.


Recording of Prepaid Fuel Charges

The post did not record the prepaid fuel expenses properly at the end of the fiscal year.

        Statement of Federal Financial Accounting Standards No. 1, “Accounting for selected assets and
        liabilities,” requires that “Advances and prepayments should be recorded as assets. Advances and
        prepayments are reduced when goods or services are received, contract terms are met, progress is made
        under a contract, or prepaid expenses expire.”

Post pays fuel expenses in advance to vendors and allows drives to fill gas utilizing cards issued
by the vendors. The post did not record this as prepaid expenses but recorded them as liquidated
obligations.

Proper compliance with financial accounting standards is required to ensure the financial
statements are accurately presented.

    We Recommend:

    20. That the administrative officer work with the Office of Chief Financial Officer to obtain
        guidance for recording prepaid expenses and record the prepaid fuel expenses
        accordingly.




Final Audit Report: Peace Corps/Ukraine                                                                         9
INFORMATION TECHNOLOGY

The post did not have procedures to control access to IT resources. The post used the room with
the communication equipment and telecommunication switches as a janitor supply room. The
post did not maintain a log to record access activity to the telecommunication room and
inappropriately provided the janitors with keys to the room. According to the IT specialist, this
arrangement was made because the post is experiencing a space shortage due to the increase in
number of Volunteers and staff. The post is actively seeking a larger office space.

Federal Information Processing Standards Publication section 200 establishes the minimum
security requirements for federal information and information systems physical and
environmental protection. It states:
        Organizations must: (i) limit physical access to information systems, equipment, and the respective
        operating environments to authorized individuals; (ii) protect the physical plant and support infrastructure
        for information systems; (iii) provide supporting utilities for information systems; (iv) protect information
        systems against environmental hazards; and (v) provide appropriate environmental controls in facilities
        containing information systems.

Controlling access to information technology is necessary to safeguard the Peace Corps from
unauthorized access and data manipulation.

    We Recommend:

    21. That the country director restrict access to the room with telecommunication equipment
        to only the required individuals.


VOLUNTEER WEBSITE

The post paid approximately $16 a year for the subscription of a domain name for a website
controlled by Volunteers (http://www.pcukraine.org). By directly paying for the annual
subscription and registering the website domain name, the post may inappropriately have
assumed risks associated with the content and security of the site.

In accordance with MS 543.7 Volunteers are permitted to create websites and are required to
disclose on the site that it is not an official publication of the Peace Corps or the U.S.
Government. Although the Volunteer website in PC/Ukraine contained such disclosure, the
funding and registration by Peace Corps suggests that the agency owns the website. The Office
of Management and Budget memorandum M-05-04, “Policies for Federal Agency Public
Websites,” states that “Federal agency public websites are information resources funded in
whole or in part by the Federal government and operated by an agency, contractor, or other
organization on behalf of the agency.”

To avoid the risks associated with ownership the post should not directly pay for a website that it
does not administer or oversee. Numerous federal laws and regulations apply to agency
sponsored websites including the Office of Management and Budget Circular A-130 governing

Final Audit Report: Peace Corps/Ukraine                                                                             10
federal information systems and security, E-Government Act of 2002 establishing standards for
government websites, and the Privacy Act of 1974 and other privacy regulations. In addition,
Peace Corps policy requires headquarters review and approval for all content included in the
agency websites. Because the website was administered by Volunteers and not operated as an
official Peace Corps it did not comply with all federal requirements.

In addition, the post did not have a formal process to review the Volunteer website content. It is
important for post management to remain informed of Volunteer websites and their content.
According to MS 543 Volunteers are required to discuss the content in advance with the CD “to
ensure that the material is suitable and complies with this general guidance as well as any
country-specific guidance.”

    We Recommend:

    22. That the country director discontinue paying for the annual subscription for the Volunteer
        website from Peace Corps funds.

    23. That the country director develop a process to review the contents of the website on a
        regular basis to ensure compliance with Peace Corps Manual section 543.


GRANT MANAGEMENT

Volunteer Consent and Liability Form

Since 2001 the post used a modified Volunteer Consent and Liability Acceptance form for Small
Project Assistance (SPA) projects. The post manages numerous projects under SPA program in
cooperation with the Agency for International Development. The post received Office of
General Counsel approval to use its “SPA Peace Corps Volunteer Receipt” form before
headquarters provided posts with the SPA handbook and the standard SPA Consent and Liability
Acceptance. In 2002, Peace Corps headquarters reviewed PC/Ukraine’s form and stated that “it
would be better for Ukraine to use the same forms all our other posts - to the extent possible” but
continue to offer suggestions on how to enhance their current form.

OFMH 49.4.3 states, “When disbursing funds either to the local organization or to the Volunteer,
the appropriate Consent and Liability Acceptance form should be completed.” The SPA
Program Handbook Part II section 3 requires that “If the Volunteer will receive funds, then the
Volunteer Consent and Liability Form (Appendix 2) should be used.”

According to the post’s SPA coordinator, the post received new 2011 SPA Handbook and
guidance from headquarters with an updated Volunteer Consent and Liability Acceptance Form
and will start using the standard form.




Final Audit Report: Peace Corps/Ukraine                                                          11
    We Recommend:

    24. That the administrative officer ensure that the Small Project Assistance grant program
        coordinator is utilizing the updated Volunteer Consent and Liability Acceptance Form.




                          Gymnasium at an orphanage in Kornalovychi, Ukraine
                          where a Volunteer grant project funded sports equipment


Tracking of Grant Projects

The SPA coordinator did not include information about the current status and the follow-up
actions initiated with the Volunteers to ensure that the grant projects were closed in a timely
manner.

Peace Corps has fiduciary duties to manage funds provided by other agencies and the public. The
grant coordinator should document the communication with the Volunteers to track status of
grant funded projects.

A more diligent effort should be made when the Volunteers are reaching their close of service
date or an early termination date to ensure Volunteers turn in all require receipts and excess
funds before departing.

The post’s grant coordinator stated that she tracks all grants funded projects regularly, but did not
record the tracking information in the respective grant project folders.




Final Audit Report: Peace Corps/Ukraine                                                           12
    We Recommend:

    25. That the post’s Small Project Assistance grant program coordinator document and
        maintain tracking information for each individual grant-funded project.


VOLUNTEER/TRAINEE ALLOWANCES

Independent Price Survey

Post did not conduct an independent price survey for the settling-in allowance surveys in fiscal
years (FYs) 2009 and 2010. Upon initial site assignment, Volunteers are provided a settling-in
allowance to purchase necessary housing supplies and equipment. MS 221.4.2 states:

         The country director must also conduct an independent price survey, which gathers data from Peace Corps
         staff, host country representatives, available host country statistics, and information from the Volunteer
         Survey. The independent survey may consist of spot checks of prices of items, but it must be
         comprehensive enough to provide verification of price trends and support the analysis of the Volunteer
         Survey.

During our audit the Administrative Officer 2 (AO) obtained price comparisons and statistics
from government and industry websites.

    We Recommend:

    26. That the administrative officer use the statistical price data to compare with settling-in
        allowance surveys and analyze whether allowances were reasonable and survey results
        were accurate.


Reconciliation of Volunteer Payment Systems

The post did not perform reconciliations between the two systems Volunteer In-Country
Allowance (VICA) and Volunteer Information Database Application (VIDA) utilized to process
payments to volunteers.

Peace Corps recently implemented VICA as the official system for calculating and tracking
Volunteer allowances. The post was utilizing VIDA before headquarters implemented the VICA
system and had developed certain functionality to meet unique requirements, such as Volunteer
Ukrainian names requested by the Ukrainian banks to process the living allowance payment
transfers. Therefore, the post did not fully rely on VICA because it did not have the functionality
to meet unique requirements as noted above. The post maintained Volunteer data in VICA, but
the financial accountant manually transferred data from VICA to VIDA. During the transfer, the
financial accountant may update volunteer information, which was not yet processed in the
VICA system.
2
  Subsequent to issuance of the preliminary report, Peace Corps updated the administrative officer’s working title to
the director of management and operations.

Final Audit Report: Peace Corps/Ukraine                                                                            13
Standards for Internal Control in the Federal Government states that “Internal Control activities
help to ensure that management's directives are carried out. It includes regular management and
supervisory activities, comparisons, reconciliations, and other actions people take in performing
their duties.”

A reconciliation of payment calculated by two systems is essential to ensure the accuracy and
completeness of payment made to volunteers via VIDA system.

    We Recommend:

    27. That the administrative officer reconcile the amounts calculated by Volunteer In-Country
        Allowance and Volunteer Information Database Application systems and before
        approving the Volunteer payments.




Final Audit Report: Peace Corps/Ukraine                                                         14
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We did not identify questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps/Ukraine                                                          15
                              LIST OF RECOMMENDATIONS
We recommend

    1. That the administrative officer and country director assign a staff member, other than the
       cashier, to calculate the Value Added Tax refund amount, file application for refund, and
       provide the information first to the billing officer to prepare the bill for collection.

    2. That the administrative officer and country director enhance the billing process by
       ensuring that information about all claims is provided to the billing officer to issue the
       bill for collection in a timely manner.

    3. That the administrative officer approve the voided transaction only if the cashier has
       attached adequate support.

    4. That the billing officer collect and retain adequate support for all voided transactions in
       the bills for collection file.

    5. That the administrative officer document the billing procedure and provide adequate
       training to the back-up for the billing officer to ensure continuity of operations.

    6. That the administrative officer, in coordination with the Office of the Chief Financial
       Officer, implement a process to charge the value added tax paid and refunded to a
       separate budgetary object class code and retain supporting documentation separately for
       processing.

    7. That the administrative officer implement a process to reconcile the balance in the value
       added tax object class code account with the supporting documentation and refund
       application.

    8. That the Office of the Chief Financial Officer develop and implement procedures for
       tracking, recording, and maintaining controls over value added tax payments and refunds
       to ensure that all refund claims are filed in a timely manner and refund is received for all
       value added taxes paid by Peace Corps.

    9. That the Office of the Chief Financial Officer assess the process for recording the account
       receivable for value added tax refunds based on the procedure for tracking and recording
       value added tax amounts.

    10. That the Office of Medical Services issue guidance to all Peace Corps medical officers to
        utilize pre-numbered medical control forms for dispensing medical supplies to enhance
        accuracy and completeness of medical supplies record.

    11. That the medical supply inventory control clerk maintain the Medical Inventory Control
        Log in compliance with the Peace Corps Manual.

Final Audit Report: Peace Corps/Ukraine                                                              16
    12. That the country director review the Medical Inventory Control Log as required by the
        Peace Corps Manual.

    13. That the Office of Medical Services issue guidance and best practices discussing
        acceptable methods of distributing medicine to Volunteers and how to ensure proper
        accountability of medication that cannot be hand delivered to the Volunteer by the
        medical staff.

    14. That the country director conduct a review of the medical office to ensure personally
        identifiable information is properly safeguarded and that the medical unit procedures
        provide for proper handling and protecting of personally identifiable information.

    15. That the general services officer retain the records supporting annual inventory
        verification, including identification and explanation of any changes after recording the
        results of inventory verification.

    16. That the administrative officer provide adequate training to the financial assistants for
        assigning proper object class codes per the Fiscal Coding Handbook.

    17. That the administrative officer review the accuracy of object class codes while
        authorizing transactions.

    18. That the administrative officer review the payment report from FORPost every week to
        ensure payee names are input correctly while processing payments.

    19. That the Office of the Chief Financial Officer develop a vendor table within FORPost to
        maintain payee information for imprest fund payments.

    20. That the administrative officer work with the Office of Chief Financial Officer to obtain
        guidance for recording prepaid expenses and record the prepaid fuel expenses
        accordingly.

    21. That the country director restrict access to the room with telecommunication equipment
        to only the required individuals.

    22. That the country director discontinue paying for the annual subscription for the Volunteer
        website from Peace Corps funds.

    23. That the country director develop a process to review the contents of the website on a
        regular basis to ensure compliance with Peace Corps Manual section 543.

    24. That the administrative officer ensure that the Small Project Assistance grant program
        coordinator is utilizing the updated Volunteer Consent and Liability Acceptance Form.




Final Audit Report: Peace Corps/Ukraine                                                             17
    25. That the post’s Small Project Assistance grant program coordinator document and
        maintain tracking information for each individual grant-funded project.

    26. That the administrative officer use the statistical price data to compare with settling-in
        allowance surveys and analyze whether allowances were reasonable and survey results
        were accurate.

    27. That the administrative officer reconcile the amounts calculated by Volunteer In-Country
        Allowance and Volunteer Information Database Application systems and before
        approving the Volunteer payments.




Final Audit Report: Peace Corps/Ukraine                                                              18
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the generally accepted government auditing standards prescribed by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The staff was very helpful in coordinating their plans to meet the audit schedule, gathering
information, and answering questions. Overall, documentation was well organized and readily
available. Further, staff worked to correct issues during the audit, which enabled the auditor to
document the findings and note that corrective action was already taken before issuing the report.

The audit of PC/Ukraine covered fiscal years 2009 and 2010 through July 3, 2010. While at the
post, we interviewed key staff including the CD, the AO, programming staff, the safety and
security coordinator, administrative support staff, and a Peace Corps medical officer. We also
interviewed Volunteers to obtain their views on the effectiveness of the post’s administrative and
financial systems in supporting them. At the end of the audit, we briefed the CD and AO. At
headquarters, we conducted a general briefing for regional management and OMS.

We relied on computer-processed data from the post’s accounting system in collaboration with
documentation such as invoices, contracts, and receipts. While we did not test the system’s
controls, we believe the information generated by the system and used by us was sufficiently
reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Statement of Federal Financial
Accounting Concepts, Standards for Internal Control in the Federal Government, Federal
Information Processing Standards, and current Peace Corps initiatives and policies.




Final Audit Report: Peace Corps/Ukraine                                                          19
APPENDIX B

                                      LIST OF ACRONYMS
AO                           Administrative Officer
BOC                          Bill of Collection
GSO                          General Services Officer
IT                           Information Technology
MS                           Peace Corps Manual Section
MSIC                         Medical Supply Inventory Control
OMS                          Office of Medical Services
PAR                          Performance and Accountability Report
PEPFAR                       President’s Emergency Plan for AIDS Relief
PII                          Personally Identifiable Information
PPIR                         Personal Property Inventory Report
SPA                          Small Project Assistance
VAT                          Value Added Tax
VICA                         Volunteer In-Country Allowance
VIDA                         Volunteer Information Database Application




Final Audit Report: Peace Corps/Ukraine                                   20
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Ukraine             21
APPENDIX D

                                          OIG COMMENTS
Management concurred with 26 of the 27 recommendations. Specifically, the region concurred
with all 22 recommendations assigned to the post, the Office of Medical Services concurred with
2 recommendations and the Office of the Chief Financial Officer concurred with
2 recommendations. The Office of the Chief Financial Officer did not concur with one
recommendation.

We closed 14 recommendations: 1, 3, 4, 5, 11, 14, 16, 17, 18, 22, 23, 24, 25, and 27. The
corrective actions address the recommendations. However, we note that the instructions
provided to the post’s medical staff discussed in recommendation 14 should be included in the
medical staff standard procedure to ensure proper handling and protecting of personally
identifiable information on a continual basis. In addition, a checklist or guide for reviewing the
website discussed in recommendation 23 would help ensure compliance with Peace Corps
Manual section 543 on regular basis.

The following 13 recommendations remain open: 2, 6, 7, 8, 9, 10, 12, 13, 15, 19, 20, 21, and 26
pending confirmation from the chief compliance officer the actions described in the
management’s response have been completed.

The Office of the Chief Financial Officer did not concur with recommendation 19 to develop a
payee table in FORPost. We understand that once payees are entered in FORPost the post can
filter, search and summarize by payee. However, to enhance control over disbursements a table
for frequent recipients is required to ensure information is consistently entered and additional
vendor information is retained in FORPost. We request that the Chief Compliance Officer
coordinate discussions with the Office of the Chief Financial Officer to resolve this
recommendation.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Ukraine                                                            33
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

 AUDIT COMPLETION                     Bradley Grubb, Assistant Inspector General for Audit,
                                      and Snehal Nanavati, senior auditor, performed the
                                      audit of PC/Ukraine.




                                      Bradley Grubb, CPA
                                      Assistant Inspector General for Audit


 OIG CONTACT                          If you wish to comment on the quality or usefulness of
                                      this report to help us strengthen our product, please
                                      e-mail Bradley Grubb, Assistant Inspector General for
                                      Audit, at bgrubb@peacecorps.gov, or call him at (202)
                                      692-2914.




Final Audit Report: Peace Corps/Ukraine                                                        34
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT
  Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
  general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and wrongdoing related to Peace
 Corps operations domestically or abroad. Using the OIG contact
    resources below, you can report information or allegations
          confidentially or choose to remain anonymous.




                               Call:
                   Main Office: 202.692.2900
          24-Hour Hotline: 800.233.5874 or 202.692.2915

                              Write:
                            Peace Corps
                      Attn: Inspector General
                        1111 20th St., NW
                      Washington, DC 20526

                                Or

                           Peace Corps
                     Attn: Inspector General
                        P.O. Box 57129
                   Washington, DC 20037-7129

                            Email:
                       OIG@peacecorps.gov

                           Website:
                     www.peacecorps.gov/OIG
